                                                                    E-IN-GSV-0042-2001

            United States Department of the Interior

                             Office of Inspector General
                                  Washington, D.C. 20240


                                                                       September 30, 2002


Memorandum

To:      Director, U.S. Geological Survey

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Independent Auditors’ Report on the U.S. Geological Survey’s Financial
         Statements for Fiscal Years 2001 and 2000 (No. 2002-I-0054)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the U.S. Geological Survey’s (USGS) financial statements for fiscal year 2001.
The contract required that KPMG conduct its audit in accordance with the Government
Auditing Standards, issued by the Comptroller General of the United States of America;
Office of Management and Budget Bulletin (OMB) No. 01-02, Audit Requirements for
Federal Financial Statements; and the General Accounting Office/President’s Council on
Integrity and Efficiency’s Financial Audit Manual. The Office of Inspector General
(OIG) is responsible for the opinion on the balance sheet and related notes for fiscal year
2000.

        In connection with the contract, we monitored the progress of the audit at key
points and reviewed KPMG’s report and related working papers and inquired of their
representatives. Our review, as differentiated from an audit in accordance with the
Government Auditing Standards, was not intended to enable us to express, and we do not
express, opinions on USGS’s financial statements or conclusions about the effectiveness
of internal controls or on conclusions about compliance with laws and regulations.
KPMG is responsible for the auditors’ report on the fiscal year 2001 financial statements
(Attachment 1) and for the conclusions expressed in the report. However, our review
disclosed no instances where KPMG did not comply in all material respects with
Government Auditing Standards.

       Because of the matters discussed in the following paragraph, KPMG stated that
the scope of its work was not sufficient to enable KPMG to express, and KPMG did not
express, an opinion on the financial statements of USGS as of and for the year ended
September 30, 2001.

       In its audit report dated February 1, 2002 KPMG reported that USGS did not
maintain its accounting records during fiscal year 2001, particularly with respect to fund
balances with Treasury, suspense accounts, unexpended appropriations and cumulative
results of operations, thus requiring extensive reconciliation and adjustment of these and
other accounts at year end, which USGS was unable to complete prior to the end of our
audit. Management did not have access to evidential matter or was not able to make
knowledgeable representation of facts and circumstances, regarding certain transactions
occurring in the current and previous years. It was impracticable for KPMS to extend the
time period and procedures of their audit sufficiently to determine the extent to which the
financial statements as of and for the year ended September 30, 2001, may have been
affected by these conditions.

        KPMG found nine reportable material weaknesses related to internal controls and
financial operations and one significant deficiency in internal controls related to
management discussion and analysis. With regard to compliance with laws and
regulations, KPMG found USGS to be noncompliant with the Debt Collection
Improvement Act and the Prompt Pay Act. In addition, KPMG’s tests of compliance with
the Federal Financial Management Improvement Act section 803(a) requirements
disclosed instances where the USGS’s financial management systems did not
substantially comply with Federal financial management systems requirements,
applicable Federal accounting standards, and the U.S. Standard General Ledger at the
transaction level.

        In its July 26, 2002 response (Attachment 3) to KPMG’s draft report USGS
generally agreed with all 13 findings; however, USGS did not agree with all of the
recommendations related to the 13 findings. In addition, USGS did not agree with the
statement in finding 3 that USGS might be non-compliant with the Anti-Deficiency Act;
however, USGS agreed to regularly perform the recommended analyses. Based on
USGS’s response and discussion with USGS management we consider the
recommendations related to findings 1, 2, 3, 4, 5, 6, 10, 11, and 12 resolved but not
implemented. USGS has proposed alternatives to the recommendations for findings 7, 8,
and 9 which if adequately implemented should correct the conditions identified in the
findings. All of the recommendations will be referred to the Assistant Secretary for
Policy, Management and Budget for either resolution or tracking of implementation.

        OIG in its report (Attachment 2) issued an unqualified opinion on the USGS’s
fiscal year 2000 consolidated balance sheet.

         Section 5(a) of the Inspector General Act (5 U.S.C App. 3) requires the OIG to
list this report in its semiannual report to the United States Congress. The Independent
Auditors’ Report is intended for the information and use of USGS management, OIG,
Office of Management and Budget and the United States Congress, and is not intended to
be and should not be used by anyone other than these specified parties.



Attachments (3)




                                             2
             2001 M Street, NW
             Washington, DC 20036




                                INDEPENDENT AUDITORS’ REPORT


Director, U.S. Geological Survey and Inspector General
U.S. Department of the Interior:

We were engaged to audit the accompanying consolidated balance sheet of the U.S. Geological Survey
(USGS) as of September 30, 2001, and the related consolidated statements of net cost, changes in net
position and financing, and combined statement of budgetary resources for the year then ended
(hereinafter referred to as “financial statements”). We were also engaged to consider USGS’s internal
control over financial reporting and to test USGS’s compliance with certain provisions of applicable laws
and regulations that could have a direct and material effect on its financial statements.


Summary

As discussed in our report on the financial statements, the scope of our work was not sufficient to express
an opinion on the financial statements as of and for the year ended September 30, 2001.

Our consideration of internal control over financial reporting resulted in identifying the following
reportable conditions, all of which we consider to be material weaknesses and none of which have been
reported in USGS’s fiscal year 2001 Federal Managers Financial Integrity Act (FMFIA) report:

1.   Information technology systems lack adequate general controls.
2.   Organizational structure of financial management needs improvement.
3.   Proprietary and budgetary accounts are not reconciled.
4.   Account analysis and adjustments are not performed timely or documented.
5.   Fund Balance with Treasury has not been reconciled.
6.   Suspense account balances are not timely reconciled and correctly recorded.
7.   Revenue cycle lacks adequate policies and procedures.
8.   Inventory is not accounted for in compliance with Federal accounting standards.
9.   Property, plant and equipment lack adequate policies and procedures.


Our consideration of internal control over required supplementary information and performance measures
resulted in identifying the following significant deficiency:

10. Content of Management Discussion and Analysis

The results of our tests of compliance with certain provisions of laws and regulations, exclusive of those
referred to in the Federal Financial Management Improvement Act (FFMIA) of 1996, disclosed instances
of noncompliance with the following laws and regulations that are required to be reported under
Government Auditing Standards issued by the Comptroller General of the United States, and Office of
Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements.


                                                    1
11. Debt Collection Improvement Act
12. Prompt Pay Act

In addition our tests of compliance with FFMIA section 803(a) requirements disclosed instances where
the USGS financial management systems did not substantially comply with Federal financial
management systems requirements, applicable Federal accounting standards, and the U.S. Standard
General Ledger (SGL) at the transaction level.

The following sections discuss our report on USGS’s financial statements, the results of our consideration
of internal control over financial reporting, the results of our tests of compliance with certain provisions
of applicable laws and regulations, and management’s and our responsibilities.



Report on the financial statements

We were engaged to audit the accompanying consolidated balance sheet of the USGS as of September 30,
2001 and the related consolidated statements of net cost, changes in net position and financing, and
combined statement of budgetary resources for the year then ended.

USGS did not maintain its accounting records during fiscal year 2001, particularly with respect to fund
balances with Treasury, suspense accounts, unexpended appropriations and cumulative results of
operations, thus requiring extensive reconciliation and adjustment of these and other accounts at year end,
which USGS was unable to complete prior to the end of our audit. Management did not have access to
evidential matter or was not able to make knowledgeable representation of facts and circumstances,
regarding certain transactions occurring in the current and previous years. It was impracticable to extend
the time period and procedures of our audit sufficiently to determine the extent to which the financial
statements as of and for the year ended September 30, 2001, may have been affected by these conditions.

Because of the matters discussed in the preceding paragraph, the scope of our work was not sufficient to
enable us to express, and we do not express, an opinion on the accompanying financial statements of
USGS as of and for the year ended September 30, 2001.

We were engaged to audit the financial statements as a whole. The statement of net cost consolidating
information is presented for purposes of additional analysis rather than to present the net cost of the
individual responsibility segments. The working capital fund supplemental information is also presented
for purposes of additional analysis and is not a required part of the financial statements. We do not
express an opinion on the consolidating information or the supplemental information for the reasons
stated in the preceding second paragraph.

The information in the Management’s Discussion and Analysis, Required Supplementary Stewardship
Information, and the Supplemental Information sections is not a required part of the financial statements
but is supplementary information required by the Federal Accounting Standards Advisory Board or OMB
Bulletin 97-01 Form and Content of Agency Financial Statements, as amended. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.


Internal Control Over Financial Reporting


                                                     2
Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. In addition, other matters
involving internal control over financial reporting might have been identified had we been able to
complete our audit of the financial statements. Under standards issued by the American Institute of
Certified Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control over financial reporting that, in
our judgment, could adversely affect USGS’s ability to record, process, summarize, and report financial
data consistent with the assertions by management in the financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements, may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal control, misstatements, due to error or fraud may nevertheless
occur and not be detected.

We noted certain matters involving internal control over financial reporting and its operation that we
consider to be reportable conditions. We believe that all of these reportable conditions are material
weaknesses:

    1. Information Technology Systems Lack Adequate General Controls

        Weaknesses in USGS’s computer systems raise concerns about the integrity of information being
        reported in the financial statements. Although USGS has taken preliminary steps in establishing
        a formal security program, USGS has not implemented information systems security policies or
        procedures to effectively control and protect information systems, programs and data supporting
        USGS operations and assets and has failed to meet minimum information technology (IT)
        security requirements of OMB Circular A-127. Some of the identified weaknesses have been
        previously reported, and persist despite developed corrective action plans. Weaknesses were
        identified in the following IT control areas:

        a) Entity-wide Security Program - USGS does not have in place an effective security
           management structure that provides a framework and continuing cycle of activity for
           managing risk, developing security policies, assigning responsibilities, and monitoring the
           adequacy of the entity's computer-related controls. The security function at USGS is shared
           between three branches of the Office of Information Services.

        b) Segregation of Duties - USGS has not ensured proper segregation of duties through its
           policies, procedures, and organizational structure such that one individual cannot control key
           aspects of computer-related operations and thereby conduct unauthorized actions or gain
           unauthorized access to assets or records without detection.

        c) Access Controls - USGS has established, but not implemented, resource classifications and
           criteria. Various access control weaknesses consist of network configuration management
           weaknesses, password management and logical access weaknesses, and lack of physical
           controls over the USGS data center.

        d) Application Software Development and Change Controls – USGS has not established,
           documented, and implemented a system for application software development and change
           controls to prevent unauthorized access to programs, or modifications to an existing program,
           from being implemented.


                                                     3
   e) System Software Controls – USGS has not established system software controls that limit
      and monitor access to the programs and sensitive files that control the computer hardware
      and secure applications supported by the system. Eighteen users were found to have more
      than one FFS user ID and other users had been granted Master user profiles within FFS.

   f) Service Continuity – USGS has established controls to ensure regular data backup is
      completed but the procedures need strengthening. USGS needs to test its Continuity of
      Operations Plan to ensure that critical operations continue without interruption, or are
      promptly resumed, and critical and sensitive data are protected should unexpected events
      occur.

   Recommendations
   We recommend that USGS implement an entity-wide security program to fully comply with
   OMB Circular A-130. Employee roles and responsibilities should be reviewed and restructured
   to achieve a higher degree of segregation of duties in computer-related operations. The USGS
   should improve its security management structure by taking immediate steps to secure the
   network vulnerabilities and access control deficiencies. We also recommend that application
   software development and change controls and system software controls be improved to prevent
   unauthorized program modification or access to read, modify or delete critical or sensitive
   information and programs.


2. Organizational Structure of Financial Management Needs Improvement

   The financial management and control environment at USGS is not operating as effectively and
   efficiently as necessary to support the USGS organization. We noted the following circumstances
   that affected the financial management and control environment at USGS:

       a) Fragmented accounting infrastructure;

       b) Inconsistent financial management oversight in field offices;

       c) Lack of communication/enforcement of policies and procedures;

       d) Lack of trained field personnel; and

       e) Vacant accounting positions in the central office.

   In 2001, USGS reorganized its administrative and accounting functions. Among other changes,
   administrative personnel, who perform accounting functions, now report through a regional
   management structure rather than through a scientific discipline. USGS implemented this and
   other changes to improve its financial management processes and systems. While improvements
   have been made, the organizational structure as it relates to accounting processes remains
   fragmented, hindering the administration of accounting policies, procedures and processes.

   The Office of Administrative Policy and Services (APS) is responsible for the development of
   accounting policies and procedures. However, the APS lacks authority to implement, and
   enforce accounting policies and procedures in the field offices. Field accounting personnel often
   perform a variety of duties outside of accounting and report to Regional Directors creating
   priority conflicts. Also, USGS operates in a highly decentralized control environment resulting in
   certain critical accounting functions being performed outside the direct oversight of the APS.


                                                 4
These situations have resulted in inconsistent managerial oversight of basic accounting functions,
and impeded the effective communication and enforcement of accounting policies.

The central accounting office has several vacant key accounting positions, resulting in
reassignment of critical management functions to existing employees who already have full
workloads. This creates an environment where policies, procedures, and controls could be
circumvented and not timely discovered with ordinary review and supervision. In addition, we
noted that central accounting personnel do not adequately understand the business practices used
by the field offices.

Also, field training of administrative personnel was conducted in fiscal year 2001 with limited
success. This could be due, in part, to conflicting priorities of field personnel. USGS personnel
do not receive adequate training and support to perform all assigned duties, including performing
account analyses and reconciliations between accounts, subsidiary records, and financial
statements routinely throughout the year to identify and correct errors or inaccuracies.

These situations resulted in material misstatements of account balances at year-end, requiring the
central office to undergo extensive, time-consuming account analysis to determine and record
more than 80 adjusting journal entries totaling more than $2 billion in order to prepare the
financial statements. Many of the adjusting journal entries were based on conversations with
field staff without sufficient support to verify amounts due to sheer volume of work, lack of
resources, and difficulties in contacting field personnel. More than 120 days after year-end,
material adjustments were still being recorded in the general ledger to produce financial
statements.

In addition, certain disclosures that, in our opinion, are required by accounting principles
generally accepted in the United States of America and OMB Bulletin No. 97-01, Form and
Content of Agency Financial Statements, as amended, have been excluded from the financial
statements, as described below:

    a) Revenues: USGS does not adequately disclose its pricing policy on the goods or services
       they provide to the public or other government entities, the nature of intragovernmental
       exchange transactions in which goods or services are provided at less than full cost and
       the reasons for disparities between billing and full cost, or the full amount of any
       expected loss when specific goods or services are provided or made to order under a
       contract and a loss is both probable and measurable. USGS also does not have a policy
       that requires losses to be recognized when is probable or measurable in compliance with
       Statement of Federal Financial Accounting Standards (SFFAS) No. 7.Accounting for
       Revenue and Other Financing Sources.

    b) Statement of Budgetary Resources: USGS does not adequately present the information
       for each of its major budget accounts as required supplementary information, the
       existence, purpose, and availability of permanent indefinite appropriations, or the
       differences between the statement of budgetary resources and the Presidents Budget
       submitted via the Federal Agencies’ Centralized Trial Balance System (FACTS) in
       January.

Recommendations
The USGS needs to improve controls to ensure that accounting information processed by regional
and district/field offices is complete, accurate, timely and in accordance with policy.



                                            5
   We recommend that USGS Office of Administrative Policy and Services leadership be given the
   authority to administer, manage and enforce compliance with accounting policies and procedures
   in a consistent manner throughout the entity. This recommendation includes any procedures
   performed by USGS’s contracted personnel.

   We recommend the USGS perform a review of controls within the regions and throughout the
   key accounting processes to test system design and identify control weaknesses. Further, with a
   decentralized accounting infrastructure, we recommend that USGS examine its accounting
   policies and procedures: including review, supervision and record retention, with the intent of
   strengthening the control environment and thereby improving the accuracy and reliability of
   accounting information.

   We recommend that USGS establish and provide training programs for all accounting and
   administrative personnel. Vacancies should be promptly filled or position requirements should
   be consolidated with other similar duties regionally.


3. Proprietary and Budgetary Accounts are not Reconciled

   The Department of Treasury’s financial management office designed the standard general ledger
   (SGL) for federal government entities to use when recording their proprietary and budgetary
   accounting transactions. Certain relationships exist between the proprietary and budgetary
   accounts and assist in proving the reliability of the financial statements and the underlying
   accounting transactions. When these ‘known’ relationships between the proprietary and
   budgetary accounts are out of balance or unreconciled, it highlights potential problems with the
   completeness and accuracy of the recording of accounting transactions and undermines the
   reliability of reported financial information.

   USGS is unable to reconcile and support differences between proprietary and budgetary balances
   reported in the financial statements as described below:

       a) USGS was unable to adequately reconcile unexpended appropriations to unobligated
          available and unavailable authority and undelivered orders. As a result, we were unable
          to determine whether USGS correctly calculated the unobligated and obligated balances
          related to unexpended appropriations, properly computed and accrued year-end payables
          or whether the budgetary or proprietary accounts were properly recorded and presented in
          the financial statements. This situation indicates that USGS could be noncompliant with
          the Anti-deficiency Act and other related budgetary acts.

       b) USGS was unable to produce a schedule of accounts payable and other accrued liabilities
          that reconciled to the SGL at September 30, 2001.

       c) In addition, USGS performed analytical calculations of cumulative results of operations
          and total net position as presented in the 2001 financial statements. The analytical
          calculations are, by design, estimates of expected results based on select financial
          statement balances. In each case the analytical calculations produced estimates
          significantly different than the balances presented in the financial statements. The
          variances were outside the acceptable range of accuracy given the expected precision of
          the estimate, indicating likely errors in net position, as reported, or other financial
          statement balances.



                                              6
       d) As a matter of procedure, USGS also performs SGL analytical computations to review
          expected relationships between accounts and test the reasonableness of financial
          statement balances. This analysis, produced by USGS, also showed material differences
          from expected results for various financial statement line items.

   Recommendations
   We recommend that USGS reconcile and investigate the source of the differences noted in the
   findings above. This procedure will enable USGS to determine, support and document its
   compliance with the Anti-deficiency Act, and provide information to make appropriate
   adjustments to correct the accounts and restate unexpended appropriations, if necessary.

   We also recommend that USGS accounting personnel implement regular analysis of their
   proprietary and budgetary accounts and determine the causes of any unreconciled differences.
   Specifically, USGS should review and correct any differences due to posting models used by its
   accounting system or noncompliant accounting procedures being practiced by the regional and
   field offices. USGS should implement policies and procedures to ensure the relationships
   between the proprietary and budgetary accounts are always correct and that budgetary status is
   routinely monitored to ensure compliance with the Anti-deficiency Act and improve the reliability
   of the accounting records.


4. Account Analysis and Adjustments are not Performed Timely or Documented

   A substantial number of account analyses and reconciliations of accounts, subsidiary records, and
   financial reports are not performed routinely throughout the year. Consequently, errors and
   discrepancies remained in the financial accounts throughout the year, thereby rendering some
   interim USGS financial information unreliable as a source of business information. It also placed
   an unreasonable burden on the accounting staff to perform the reconcilations and post correcting
   entries within a short period of time after year-end, causing staff to work excessive overtime. We
   noted a severe override of review and management controls during this period in an effort to
   close the financial records and prepare for the annual audit. Many entries were posted without
   review or approval, creating an environment where material errors may occur and not be detected
   in the ordinary course of business. We noted that several adjustments were posted incorrectly
   during the closing process and required further analysis and rework. We were unable to audit
   certain year-end adjustments because USGS did not maintain supporting documentation for all
   year-end adjustments.

   As an indication of the extent of reconciliation and analysis performed after year-end, the table
   below shows the net dollar adjustment made to certain individual accounts in the year-end
   closing process:

                                                            Net Year-End
                   Account Name                              Adjustments

          Non-SF 224 transactions                             $ 33,548,944
          Unexpended appropriations                             98,892,441
          Allowance for loss on accounts receivable              6,880,923
          Accounts receivable - unbilled                        22,554,837
          Other accrued liabilities                             18,365,133
          Advances from others                                   5,755,192
          Liability for deposit funds in suspense                8,102,322


                                               7
   These are proprietary balance sheet accounts and contain the type of transactions that would
   normally be reconciled on a monthly or quarterly basis. We would normally expect to see
   relatively few year-end adjustments to these accounts if analysis and reconciliation procedures
   were effectively performed during the year. As mentioned in our comment on Organizational
   Structure of Financial Management above, more than 80 adjusting journal entries were posted
   after year-end.

   USGS also needs to improve its reconciliation procedures with trading partners. Significant
   differences exist in amounts due/from USGS and other Interior Bureaus during the year. This
   creates an added burden at year-end to reconcile and post eliminating entries with trading
   partners. We identified more than $9 million of trading partner balances that remained
   unreconciled in the September 30, 2001 financial statements.

   Recommendation
   We recommend that USGS develop and implement procedures to ensure that all accounting
   adjustments are reconciled, adequately supported, timely and independently reviewed throughout
   the year.


5. Fund Balance with Treasury has not been Reconciled

   USGS had an out-of-balance position of approximately $4 million with its Fund Balance with
   Treasury at September 30, 2001. We noted that:

       a) USGS could not fully support and had not identified the cause of the $4 million
          difference;

       b) A complete itemized listing of the reconciling items does not exist;

       c) Some of the reconciled items represented reclassifications between appropriations, which
          was not documented.

       d) Some of the items on the reconciliation were not supported;

       e) Some of the items on the reconciliation were not accurate;

       f) The out-of-balance condition is the net of numerous unreconciled amounts that affect
          Fund Balance with Treasury both positively and negatively;

       g) The out-of-balance condition existed last year and will likely require a multi-year
          reconciliation to correct the situation and properly state Fund Balance with Treasury;

       h) The differences and corrections will likely affect a variety of general ledger accounts and
          financial statement line items, by an undetermined amount (given the condition described
          in (f) above);

       i)   Fund Balance reconcilations, all of which are performed by professional staff, have not
            been sufficiently reviewed by financial management in a timely manner; and

   USGS is unable to adequately support the reimbursable activity of $208 million presented in note
   3, “Fund Balance with Treasury”.

                                               8
   We also noted that USGS has been performing monthly reconciliations of collections and
   disbursements; however, differences are not investigated and cleared on a timely basis. In some
   cases, reconciling items were simply recorded to expense or revenue, as needed, to force the
   balancing of the account.



   Recommendations
   We recommend that USGS develop and implement procedures to ensure that all Fund Balance
   with Treasury reconcilations are accurately performed after month-end, that all differences are
   identified, investigated and cleared timely. The revised procedures should also include a review
   by knowledgeable supervisors.

   We recommend the USGS investigate the current out of balance condition, determine the source
   of differences and post the correcting adjustments to the financial records.

6. Suspense Account Balances are not Timely Reconciled and Correctly Recorded

   USGS routinely uses SGL account 2400, Liability for Suspense, to temporarily record
   transactions pending the receipt of information needed to clear and properly record the
   transactions – a common practice for many Federal entities. However, we noted that USGS has
   not reconciled the suspense account sufficiently to clear all pending items. At year-end, a net
   adjustment totaling more than $8 million was recorded to expense to clear the suspense account,
   without evidence to support the entry. USGS was unable to determine, in the time permitted to
   prepare year-end financial statements, what the correct adjustments should have been (both dollar
   value and SGL accounts). We noted the following related to the liability for suspense account:

       a) A significant number of transactions reside in suspense that are more than a few months
          old, pending resolution at year-end, which will likely result in numerous adjustments to a
          variety of financial statement line-items including proprietary and budgetary accounts;

       b) USGS is not able to readily identify the nature or source of the remaining balances yet to
          be cleared;

       c) The central finance office does not have ready access to the information needed to clear
          the remaining pending balances; and

       d) Some of the unreconciled balances, individually and in aggregate, are material to the
          financial statements.

   USGS is able to broadly classify the balances and generally identify the eventual disposition.
   However, the detail accounts that will be affected by the reconciliation of the suspense balances,
   and the dollar value of the adjustments, could not be determined prior to the end of our fieldwork.

   Recommendations
   We recommend that USGS develop and implement procedures to ensure that the liability for
   suspense account is reconciled on a timely basis after month-end, and that all pending
   transactions are investigated, properly supported, and recorded to the correct account. The
   revised procedures should also include a review by knowledgeable supervisors to ensure the
   completeness of the reconciliation and resulting postings. We also recommend that individual
   transactions be better identified to allow for easier research and the adoption of a policy requiring

                                                9
   the clearing of transactions in less than 6 months. This policy will also help ensure that USGS is
   in compliance with applicable Treasury regulations.

   We recommend that USGS investigate the pending transactions in suspense at September 30,
   2001 and post the correcting adjustments to the financial records to properly clear the account.

7. Revenue Cycle Lacks Adequate Policies and Procedures

   During our audit of USGS’s revenue cycle and reimbursable agreements we noted a number of
   internal control, process and procedural deficiencies. The deficiencies listed below affect some
   or all of the accounts within the USGS revenue cycle, including expenses, earned revenue,
   unbilled and billed accounts receivable, allowance for doubtful accounts, bad debt expense and
   deferred customer revenue.

       a) Significant discrepancies existed between the detail subsidiary ledgers and the general
          ledger at year-end that required extensive research by USGS to reconcile for financial
          statement purposes.

       b) The management controls over reimbursable agreements need improvement. Agreements
          are often not immediately entered into the Project Cost Accounting System (PCAS)
          system upon receipt of the signed agreement. In some cases the same data is manually
          entered twice, into multiple systems, such as the Funds Management System or the BRD
          Administrative Information System, which partially replicates the financial data in the
          FFS system. Additionally, the contract systems do not electronically interface or
          automatically roll forward agreement data to the next fiscal year – instead agreements
          must be manually reentered each year - increasing the likelihood of error.

       c) USGS is not billing customers timely. In approximately 15% of agreements reviewed we
          noted that USGS did not bill customers for more than a year past the time when the
          agreement allowed for billings to occur. This was one explanation given for the increase
          in unbilled receivables during the year. Further, billings are prepared manually and then
          sent to USGS headquarters for entry into the system. This process is inefficient, prone to
          error and resulted in billings not recorded in the financial accounting systems timely or
          correctly.

       d) USGS was not able to provide supporting evidence for some transactions, due to missing
          documentation or difficulty in retrieving the information. In several instances, records
          supporting current balances were maintained off-site. This situation prevented us from
          completing our procedures on certain transactions and significantly impedes
          management’s access to relevant financial information when needed.

       e) We also noted two situations where USGS may not be refunding excess advances made
          by customers as required at the end of projects when unused funding remains.
          Additionally, USGS does not have a clear policy covering the transfer or use of funding
          between projects. We noted one instance where losses of one project where covered by
          transfers of excess funding balances of another unrelated project.

       f) The central accounting office is reliant upon division personnel to take appropriate action
          to ensure collection of billed amounts. Some division personnel have not diligently
          pursued collections of past due amounts, resulting in an increase in accounts receivable
          each year for several years.


                                              10
       g) USGS has not established a methodology for estimating and recording an allowance for
          doubtful unbilled accounts receivable. USGS recorded an adjustment of approximately
          $5.7 million to establish a reserve for uncollectable unbilled accounts receivable,
          however the adjustment was not based on a thorough review of the detail records.

   Recommendation
   We recommend that USGS perform a study of its entire revenue cycle and consider redesigning
   or reengineering the process. We believe that findings (a) through (e) above can be addressed
   through this project. The USGS accounting process, including posting models, combined with
   the use, or lack of use, of technology and software and limited management oversight and review,
   is contributing to inefficiency and incidences of error. The system and process is unnecessarily
   complex and perhaps used in inappropriate ways (e.g. accounting for General Services
   Administration credits). We recommend that areas of process redesign should focus on:

      A review of the controls and procedures at the data entry points for reimbursable agreements
      and the revenue cycle – including coding and input of expenses, reimbursable agreement
      information, billings, payments and credits. We also recommend that a process flow analysis
      be performed to highlight areas of control deficiency and process inefficiencies.

      The ability to upgrade systems to reduce the extent of manual intervention, and improve
      automatic systems interface between the various subsidiary systems, produce management
      and informational reports, flag discrepancies, and carryover data into future years. We also
      recommend exploring the possibility of reducing the number of independent systems currently
      used in the revenue cycle – which is now more than five.

      Reduce the complexity of accounting for individual agreements and programs by redesign of
      the project coding or customer numbering system and application of burden rates. This
      objective would also be intended to simplify and improve the accuracy of the reconciliation
      process for both budgetary and proprietary accounts of reimbursable and direct agreements.

      Implement procedures to bill customers more frequently and follow-up on past due billings.
      We recommend that USGS consider centralizing and/or automating the billing process.

      Improve organization of customer agreements to enable better access to source documents and
      agreement information. We also recommend that USGS consider standardizing, to the extent
      possible, the format of its agreements to ensure that data critical to the accounting process is
      captured at the time of agreement execution.

   The result of the process review and redesign would be (i) improved policies and procedures,
   including policies to ensure compliance with Federal contracting requirements, (ii) enhanced
   internal controls, (iii) improved efficiency and timeliness of processing, and (iv) better
   management tools to ensure completeness, existence and accuracy of amounts recorded in the
   system and reported in the financial statements. Our findings stated in (f) and (g) above can be
   corrected with improved management procedures to regularly monitor billed receivables, using
   an aging analysis and properly recording an allowance for doubtful accounts receivable for both
   billed and unbilled balances as needed.

8. Inventory is Not Accounted for in Compliance with Federal Accounting Standards

   USGS has not established policies and procedures to account for map and hydrological inventory
   that will ensure compliance with SFFAS No. 3, Accounting for Inventory and Related Property,
   as noted below:

                                              11
    a) USGS recorded a $1.7 million adjustment to write-down the value of inventory held for
       sale to “net realizable value” as required by SFFAS No. 3. However, the adjustment was
       based on very limited review, was not documented by USGS and therefore, could not be
       independently verified by us. USGS also lacks written policies and procedures describing
       the method for and timing of recording valuation adjustments to inventory.

    b) USGS is not currently recording the sale of merchandise in compliance with SFFAS No.
       3, which states that “upon sale … the related expense shall be recognized and the cost of
       those goods shall be removed from inventory.” Costs that are normally included in the
       valuation of inventory (e.g. raw materials, production) are being expensed as purchased
       or paid, not recorded as an asset in the valuation of inventory. This situation resulted in
       an understatement of cost of goods sold reported at the end of the year in USGS’s
       financial records and a likely overstatement of period costs that would have otherwise
       been included in the valuation of inventory and expensed as sold. While these errors have
       an offsetting effect in the financial statements, time did not permit USGS to perform the
       analysis needed to properly adjust the expense accounts and determine the proper
       valuation of inventory (as also described in (a) above).

    c) USGS has not properly classified revenue recognized from the sale of merchandise in the
       SGL. Inventory sales are currently classified as revenue on “reimbursable agreements”
       instead of “Revenue from Products Sold” in the SGL. While some inventory sales are
       likely related to reimbursable agreements, USGS did not have time to analyze the sales
       transactions and properly classify revenue from sales of merchandise in the SGL. This
       situation resulted in a classification error in the SGL. However, the error did not affect
       the financial statements in 2001 because the accounts combined for financial statement
       presentation purposes.

We were also unable to determine that USGS has appropriately valued inventory. USGS uses a
costing model that is not clearly documented or understood within the organization and results in
a value that may not reflect the true production or purchase cost of inventory.

Recommendations
We recommend that USGS establish policies and procedures to ensure compliance with SFFAS
No. 3. The procedures should require a periodic (not less than annually) review to determine the
proper carrying value of inventory. An adjustment to reduce the value of inventory should be
made to expense when it is determined that the “net realizable value” (eventual sales price) of
inventory will likely be less than the carrying cost.

We recommend that USGS review its methodology to value inventory. This review may result in
an adjustment to restate inventory. It will also help address the material weakness related to cost
of goods sold. As inventory is sold or otherwise used, USGS should record, in the same period,
cost of goods sold equal to the value of inventory sold.

We also recommend that USGS record sales of inventory in the proper SGL account. A review
should also be performed to ensure that reimbursable agreements are properly charged expense
for any inventory usage associated with that agreement, to ensure that USGS is properly
reimbursed for all allowable costs.




                                            12
9. Property, Plant, and Equipment Lack Adequate Policies and Procedures

   We noted the following issues that affected real property, personal property, capitalized software
   and construction in process:

   Real property – USGS has not fully reconciled its real property subsidiary ledger to the detail
   listing that supports the general ledger amounts. USGS has developed a summary listing, which
   provides the names of each property owned, including all land, structures, and facilities owned at
   each property site, the status of the property, and the estimated value. However, the summary
   listing does not reconcile to the general ledger or the amounts presented in the financial
   statements.

   Additionally, we were unable to ascertain the propriety of accumulated depreciation and related
   depreciation expense for an individual real property asset. USGS was unable to provide detail
   documenting how its real property depreciation values are tied to the individual components at
   each property site. We noted that depreciation expense and the related accumulated depreciation
   are calculated by entire property site instead of by individual assets. Since a variety of assets
   exist at each site, this method of computing depreciation will most likely not result in an accurate
   depreciation expense figure each period, and accumulated depreciation could be materially
   misstated.

   The Branch of Management Support recorded a revaluation of real property assets resulting in a
   net decrease of real property in fiscal year 2001 of approximately $4.3 million. USGS was
   unable to provide adequate supporting documentation to substantiate a decrease in real property.
   USGS has not established a policy to address real property impairments. A post-closing entry was
   recorded to reinstate the real property balance and remove the associated period expense, until
   further documentation can be obtained to support the reduction in value.

   Personal property – We noted errors in recording purchases, subsidiary (detailed) ledgers that did
   not agree and were not reconciled to the general ledger, and that USGS was unable to explain the
   differences, without extensive effort. The property, plant and equipment subsidiary ledger does
   not adequately interface with the FFS accounting system. Also, the subsidiary ledger is
   maintained by personnel who are not under supervision or subject to the review of the central
   accounting department, responsible for maintenance of the general ledger. We also noted that:

       a) Several assets had been recorded as additions that had not been received during the year;

       b) Depreciation expense was not being calculated and/or recorded on all assets properly;

       c) An asset transferred in from another federal agency was incorrectly recorded; and

       d) Documentation supporting acquisitions was not always available, without extensive
          research.


   Capitalized software – USGS recorded a post-closing adjustment for approximately $6 million to
   implement SFFAS No. 10, Accounting for Internal Use Software, in fiscal year 2001. The single
   adjustment was recorded after year-end since USGS policy and procedures were not followed by
   divisional personnel, or adequately communicated to properly track the cost of developing the
   software, record software as a capital asset in the FFS, and establish amortization policies. We
   noted that several internally developed software projects had been completed during the year but
   had not been capitalized or put in service. This situation resulted in an understatement of capital

                                               13
        assets until USGS accounting staff performed analyses to accumulate the appropriate costs and
        adjust the financial records after year-end.

        Construction in process – USGS does not maintain a “construction in process” SGL account to
        properly record assets under construction or received in components. SFFAS No. 6 Accounting
        for Property, Plant, and Equipment, states “in the case of constructed property, plant and
        equipment, the property, plant and equipment shall be recorded as construction work in process
        until it is placed in service, at which time the balance shall be transferred to general property,
        plant and equipment.”

        Recommendations
        We recommend that USGS implement a process to include a periodic reconciliation between the
        general and subsidiary ledgers – both personal and real property. The process could be made
        more efficient and accurate by using fields of common data elements in both systems. In
        addition, we advise USGS to establish policies and procedures to ensure property balances are
        complete and accurate. A review of beginning balances and inventory of property, plant and
        equipment may be required to ensure the accuracy of total gross book value reported in the
        financial statements. We also recommend that USGS review current processes to more
        completely identify internal control and process deficiencies and redesign the process and/or
        electronic systems. USGS should also consider aligning the property, plant and equipment
        acquisition process under a central system of review and supervision and enhancing the training
        of property accountants to ensure consistency in record-keeping for asset additions.

        USGS should also review its procedures for recording depreciation expense to ensure that
        depreciation expense is accurately and completely recorded for each asset and a record of
        accumulated depreciation, by asset, should be maintained.

        We recommend that USGS establish and implement accounting policies and procedural guidance
        to be used when revaluing assets. These accounting policies and procedures should specifically
        focus on the proper accounting treatment for revaluing assets.

        The USGS should develop a system or process to have cost associated with the development of
        software recorded in the general ledger and should clearly communicate this requirement to all
        USGS organizations.

        USGS should determine whether or not it has sufficient construction activity to maintain a
        construction in process account. If so, we recommend USGS develop and implement accounting
        policies and procedures for recording construction in process expenses. This should include a
        construction in process SGL account and a related subsidiary system to track the related
        construction in process amounts. The CIP system and property, plant, and equipment developed
        should incorporate both personal property and real property items.

        USGS should follow the guidance provided in SFFAS No. 6, when transferring assets from other
        Federal entities, which states “The cost of general property, plant, and equipment transferred
        from other Federal entities shall be the cost recorded by the transferring entity for the PP&E net
        of accumulated depreciation or amortization. If the receiving entity cannot reasonably ascertain
        those amounts, the cost of the property, plant and equipment shall be its fair value at the time
        transferred.”



A summary of the status of prior year reportable conditions is included as Exhibit I.

                                                    14
Internal Controls Over Required Supplementary Information and Performance Measures

We noted certain significant deficiencies in internal control over Required Supplementary Information
discussed in the following paragraph that, in our judgment, could adversely affect USGS’s compliance
with the Required Supplementary Information reporting requirements.


    10. Management Discussion and Analysis

        The Management Discussion and Analysis (MD&A) did not contain a section to help users
        understand the financial results. OMB Bulletin No. 97-01, as amended, requires that MD&A
        should help users understand the entity’s financial results. It should give the users the benefit of
        management’s understanding of the relevance of particular balances and amounts shown in the
        principal financial statements, particularly if relevant to important financial management issues.

        Recommendation
        We recommend that USGS expand its MD&A section to include further discussion and analysis
        of financial results.



Compliance with Laws and Regulations

The results of our tests of compliance with the laws and regulations described in the Responsibilities
section of this report, exclusive of the Federal Financial Management Improvement Act (FFMIA),
disclosed several instances of noncompliance with the following laws and regulations that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.


    11. Debt Collection Improvement Act

        USGS divisional personnel did not identify all accounts receivable, that were delinquent for more
        than 180 days, as eligible for transfer to the U.S. Department of Treasury for collection or offset,
        resulting in a significantly lower transfer than would have otherwise been made.

        Recommendation
        We recommend that USGS establish a process, in fiscal year 2002, to ensure eligible receivables
        are referred to the U.S. Department of Treasury in a timely manner.


    12. Prompt Pay Act

        USGS did not always pay interest to vendors for late payments as required by the Prompt Pay
        Act, due to a lack of controls over data entry of vendor invoice information.

        Recommendation
        We recommend that USGS establish a process, in fiscal year 2002, to ensure late payments to
        vendors and creditors include interest penalties.


                                                    15
The results of our tests of FFMIA disclosed instances, described below, where USGS financial
management systems did not substantially comply with the Federal financial management systems
requirements, applicable accounting standards, and SGL at the transaction level.

   13. FFMIA

       FFMIA requires that each Federal agency shall implement financial management systems that
       comply substantially with (1) Federal financial management systems; (2) applicable Federal
       accounting standards; and (3) the US Standard General Ledger at the transaction level. Our
       findings in each area are described below:

       EDP General Controls – We noted matters which we believe indicate that ineffective general
       controls exist over USGS’s automated information systems, and are significant departures from
       certain requirements of OMB Circulars A-127, Financial Management Systems, and A-130,
       Management of Federal Information Resources, and were therefore instances of substantial non-
       compliance with the Federal financial management systems requirements under the Federal
       Managers’ Financial Integrity Act.

       As discussed above in our material weakness “Lack of General Controls Over Information
       Technology Systems,” USGS needs to improve its EDP security and general control environment.
       USGS has not finalized and communicated an entity-wide security plan; has not configured the
       operating systems to provide optimal security and protection and to limit access to sensitive
       datasets and libraries; has not fully established system software controls that limit and monitor
       access to the programs and sensitive files; has not fully developed or segregated procedures for
       controlling changes over application software; and needs to improve maintenance of its off-site
       storage records. As a result, USGS does not substantially comply with the security and general
       EDP control requirements of OMB Circulars A-127 and A-130.

       Federal Accounting Standards – We noted matters that we believe constitute noncompliance with
       applicable federal accounting standards. These matters are considered material weaknesses and
       described in finding No. 2 in the section of our report titled “Internal Control Over Financial
       Reporting”.

       Standard General Ledger – USGS is not in substantial compliance with US Standard General
       Ledger financial recording requirements. Transactions recorded in the revenue cycle and
       property, plant and equipment are recorded in a variety of subsidiary ledgers that do not follow
       the SGL format and do not reconcile to the general ledger. These transactions are then
       periodically recorded at a summary level into USGS’s general ledger. While some of these
       subsidiaries systems data are recorded at a summary level monthly, at least one is recorded at a
       summary level annually. In addition, certain transactions involving the sale of inventory are not
       properly recorded at the SGL level, specifically cost of goods sold. These matters are considered
       material weaknesses and described findings Nos. 7, 8 and 9 in the section of our report titled
       Internal Control Over Financial Reporting.

       Recommendation
       We recommend that in fiscal year 2002, the Central Accounting Department and CFO devote
       resources toward efforts to:

          Improve the automated information systems environment.


                                                  16
            Improve financial statement preparation, presentation and disclosures to comply with The
            CFO Act of 1990 and OMB requirements for the form and content of agency financial
            statements. Improvement would be facilitated using the GAO/PCIE Financial Audit Manual
            and CFO Act checklist issued July 2001.

            Address the control weaknesses described in the section of our report titled “Internal Control
            Over Financial Reporting.”

            Investigate alternatives for recording revenue cycle, property, plant and equipment and
            equipment transactions that will enable USGS to process transactions at the SGL level in
            subsidiary ledgers and therefore maintain compliance with FFMIA.

Responsibilities

Management’s Responsibility

The Government Management Reform Act (GMRA) of 1994 requires a federal agency to report annually
to Congress on its financial status and any other information needed to fairly present its financial position
and results of operations. To meet the GMRA reporting requirements, USGS prepares annual financial
statements.

Management is responsible for:

    Preparing the financial statements in conformity with accounting principles generally accepted in the
    United States of America;
    Establishing and maintaining internal controls over financial reporting; required supplementary
    stewardship information and performance measures; and
    Complying with laws and regulations, including FFMIA.

In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies.

Auditors’ Responsibility

Because of the matters discussed above in the Report on the financial statements section, the scope of our
work was not sufficient to enable us to express, and we do not express, an opinion on the accompanying
financial statements of USGS as of and for the year ended September 30, 2001. We considered the
limitations on the scope of our work in forming our conclusions.

In connection with our engagement, we considered USGS’s internal control over financial reporting by
obtaining an understanding of USGS’s internal control, determining whether internal controls had been
placed in operation, assessing control risk, and performing tests of controls in order to determine our
procedures. We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02 and Government Auditing Standards. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our procedures were not to provide assurance on internal controls over
financial reporting. Consequently, we do not provide an opinion on internal control over financial
reporting.

As required by OMB Bulletin No. 01-02, we considered USGS’s internal control over Required
Supplementary Stewardship Information by obtaining an understanding of USGS’s internal control,
determining whether these internal controls had been placed in operation, assessing control risk, and

                                                     17
performing tests of controls. Our procedures were not designed to provide assurance on internal control
over Required Supplementary Stewardship Information and, accordingly, we do not provide an opinion
on such controls.

As further required by OMB Bulletin No. 01-02, with respect to internal control related to performance
measures determined by management to be key and reported in the Management Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertions. Our procedures were not designed to provide assurance on
internal control over performance measures and, accordingly, we do not provide an opinion on such
controls.

In connection with our engagement, we performed tests of USGS’s compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 01-02, including certain provisions referred to in FFMIA. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws and regulations applicable to USGS. Providing an opinion on compliance with laws and
regulations was not an objective of our procedures, and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether the USGS financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
section 803(a) requirements.

Distribution

This report is intended for the information and use of Department of the Interior’s management,
Department of the Interior’s Office of the Inspector General, OMB and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




February 1, 2002




                                                   18
                                                                                      Exhibit I

                                      USGS
            Summary of the Status of Prior Year Reportable Conditions
                              September 30, 2001


  Prior
  Year                      Condition and Comment Excerpt                           Status
 Report
Reference

   A             USGS Needs Improved Controls Over Undelivered                     Repeated
                 Orders.                                                          Finding # 3

                 USGS overstated its year-end undelivered orders account
                 balance and understated its year-end accounts payable
                 and expense account balances.

   B             USGS Needs Improved Controls Over Accounting                      Repeated
                 Adjustments.                                                     Finding # 4

                 USGS did not independently review all adjustments made
                 to accounting data in its Federal Financial Systems (FFS)
                 and maintain evidence that adjustments made to its
                 Hyperion system were independently reviewed.

   C             USGS Needs Improved Controls Over Its Capitalized                 Repeated
                 Equipment Records.                                               Finding # 9

                 USGS did not ensure that its capitalized equipment
                 records were accurate or complete.


   D             USGS Needs Improved Controls Over Advance                         Repeated
                 Payments Recorded in its Project Cost Accounting                 Finding # 7
                 System.

                 USGS Project Cost Accounting System, which tracks the
                 costs of USGS projects, did not accurately account for
                 advance payments received by the USGS under certain
                 contractual agreements.


   E             USGS Needs Improved Controls Over Compliance With                Repeated
                 the Prompt Payment Act.
                                                                             Compliance with Laws
                 USGS did not timely compensate vendors for purchases          and Regulations
                 and did not pay late payment interest penalties.               Finding # 12


                                           19
                                                                              Attachment 2

            United States Department of the Interior

                             Office of Inspector General
                                   Washington, D.C. 20240




                         Independent Auditors’ Report

To:        Director, U.S. Geological Survey

Subject:   U.S. Geological Survey’s Financial Statements for Fiscal Year 2000

       We have audited the U.S. Geological Survey’s (USGS) consolidated balance
sheet and related notes as of September 30, 2000. The objective of our audit was to
express an opinion on the fair presentation of the consolidated balance sheet. This
financial statement is the responsibility of the USGS, and our responsibility is to express
an opinion, based on our audit, on this financial statement.

        We conducted our audit in accordance with the auditing standards generally
accepted in the United States of America; the standards for financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and with Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements. These standards and OMB Bulletin
No.01-02 require that we plan and perform our audit to obtain reasonable assurance as to
whether the accompanying balance sheet is free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures
contained in the consolidated balance sheet and the accompanying notes. An audit also
includes assessing the accounting principles used and the significant estimates made by
management, as well as evaluating the overall balance sheet presentation. We believe
that our audit of the balance sheet provides a reasonable basis for our opinion.

        In our opinion, the consolidated balance sheet referred to above presents fairly, in
all material respects, the financial position of the USGS as of September 30, 2000, in
conformity with accounting principles generally accepted in the United States of
America.

        As described in Note 13, USGS has restated its FY 2000 consolidated balance
sheet. These revisions were made to (a) correct an understatement of revenues for
reimbursable funds, (b) correct inventory that was not recorded at the net realizable
value, (c) correct the expired authority amount, and (d) reclassify the unreconciled
difference in fund balance with Treasury to other assets.

       In our report dated September 6, 2001, we expressed an opinion that USGS’s
statement of net cost for the year ended September 30, 2000 presented fairly, in all
material respects, its net cost of operations in conformity with accounting principles
generally accepted in the United States of America. As discussed in Note 17, USGS has
restated its statement of net cost for the year ended September 30, 2000 to conform to the
presentation of net cost for the year ended September 30, 2001. We did not audit the
restated statement of net cost for the year ended September 30, 2000, and accordingly, we
do not express an opinion on this statement.




Roger La Rouche
Assistant Inspector General for Audits
September 6, 2001, except for Note 13
as to which the date is February 1, 2002




                                            2
Attachment 3
